                                                    SENSITIVE BUT UNCLASSIFIED



                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General
Office of Inspector General

                                                 Office of Inspections

                                                Inspection of
                                         Bureau of Consular Affairs,
                                         Overseas Citizens Services,
                                  Office of American Citizens Services and
                                             Crisis Management

                                             Report Number ISP-I-11-60, August 2011




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552.Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.




                                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                        PURPOSE, SCOPE, AND METHODOLOGY
                                  OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                           i
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                         Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                             Harold W. Geisel
                                             Deputy Inspector General




                                           ii
                              SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED



                                 Table of Contents
Key Judgments                                             1
Context                                                   2
Executive Direction                                       3
Policy and Program Implementation                         6
   European and Eurasian Division                         6
   East Asia and Pacific Division                         7
   Africa Division                                        7
   Near East and South Asia Division                      9
   Western Hemisphere Division                            9
   Crisis Management Staff                               10
   Outreach                                              12
Restructuring                                            14
Resource Management                                      16
   Financial Services                                    16
   Orientation, Training, and Continuing Education       20
Equal Employment Opportunity                             22
List of Recommendations                                  23
Informal Recommendations                                 25
Principal Officials                                      27
Abbreviations                                            28




                                        iii
                            SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



Key Judgments
•   The Bureau of Consular Affairs, Overseas Citizens Services, Office of American Citizens
    Services and Crisis Management (CA/OCS/ACS) provides effective and timely assistance to
    U.S. citizens. However, CA/OCS/ACS needs to improve its internal policies and procedures.

•   OCS/ACS encourages an entrepreneurial, creative, and flexible approach to work that does
    not suit all employees, particularly those who require a more structured environment. The
    front office and division chiefs need to be more directive regarding core work processes and
    to ensure that responsibilities are distributed evenly among employees, thereby maximizing
    staff productivity and minimizing the need for additional positions. OCS/ACS should also
    hold its division chiefs accountable for an established set of tasks and officewide standards
    and require existing staff to fulfill functions now accomplished by volunteers.

•   Uneven communication and the inconsistent application of office policies and procedures
    among ACS divisions have led to perceptions of unfairness, despite management’s efforts to
    dispel them. The OIG team counseled ACS leadership to ensure that travel, excursion tours,
    public speaking opportunities, duty officer responsibilities, and task force assignments are
    distributed fairly and that management decisions affecting personnel are as transparent as
    possible.

•   Operation of the OCS trust, which provides funds to U.S. citizens in distress overseas, is
    outdated, time consuming, and vulnerable to loss. CA should conduct a thorough review of
    trust procedures, establish clear guidelines for running the program, examine the fee schedule
    for and cost effectiveness of administering trusts, and instruct overseas posts to evaluate
    whether current conditions warrant the routine or recurrent use of the trust.


The inspection took place in Washington, DC, between May 4 and June 10, 2011. (b) (6)




                                           1
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



Context
        OIG last inspected ACS in the spring and summer of 2001. Since then, many changes
have occurred throughout CA, including an increased emphasis on security and crisis
management in the wake of the terrorist attacks of September 11, 2001; the need to provide
services to, and use new technologies to reach, an ever-increasing number of Americans living
and traveling abroad; the requirement that citizens traveling to Mexico and Canada carry
passports; and an exponential growth in the size of ACS’s sister office, the Office of Children’s
Issues, especially since the Department of State (Department) designation as the U.S. Central
Authority for The Hague Conventions on Adoption and Abduction. Some of these changes
influence the work of ACS directly; others, indirectly.

        Three factors have affected ACS during the past year. The first was the “year of crises.”
From the earthquake in Haiti in 2010 to the events of early 2011—including the earthquake,
tsunami, and nuclear crisis in Japan and the upheaval in the Middle East—ACS has had to staff
more task forces in a shorter period of time than ever before, repatriate a record number of
American citizens, and provide services to citizens in crisis areas and to their families in the
United States. This year of crises has exposed ACS strengths as well as some weaknesses. It also
has raised management questions: Is task force service mandatory? Is it fairly distributed? Are
staff members properly trained? How do ACS staff members complete their daily workload
when fatigued from serving on task forces or as duty officers?

        The second was an internal review of the structure of ACS, which included an assessment
of every employee’s work requirements and increased the reach of citizens services specialist
ladders to the GS-13 level. Although this process improved the career potential of many, it was
also stressful because employees had to reapply for their jobs, and not all received higher grades.
Additionally, some citizens services specialists are now at the same grade as the team leaders in
their offices, which creates uneasiness on both sides.

        The third factor was space reconfiguration, necessitated by growth in the Office of
Children’s Issues, which led to smaller cubicles and shared office space for many. These internal
events seemed to hurt morale more than any changes in the nature of the work itself, from which
most employees derive great satisfaction.

        This inspection focused on the quality of service provided to posts to help Americans
abroad and on internal management. To assess the former, the OIG team requested that officers
in embassy ACS sections worldwide respond to a survey on the quality of service provided by
OCS/ACS. The inspectors used data and information from this survey to counsel ACS leadership
on areas for improvement in each of the geographic divisions. The team did not inspect such
closely related offices as Children’s Issues or Policy Coordination and Public Affairs.




                                           2
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



Executive Direction
        CA’s Strategic Resource Plan unequivocally states that its first priority “is to protect the
lives and interests of American citizens abroad.” During the inspection, the OIG team observed
that OCS/ACS is firmly committed to this mission. The OCS managing director oversees
OCS/ACS. She reports to the OCS deputy assistant secretary (DAS), supervises the director of
OCS/ACS, and reviews the ACS regional division chiefs and the crisis management coordinator.
At the time of the inspection, one of the division chiefs, a particularly strong manager, was
serving as acting director of ACS. The OCS managing director also supervises offices that were
not part of this inspection: the Office of Children’s Issues; the Office of Policy Review and
Interagency Liaison; and the Planning, Programs, and Systems Liaison staff. All are located on
one floor of the mixed-use office building that houses ACS, about a 15-minute walk from the
Henry S. Truman/Main State building.

        The OCS managing director is committed to improving an already strong office. Both she
and the acting ACS director met weekly with the OIG team to discuss the inspectors’
observations and findings and implemented many of the suggestions during the inspection. The
managing director has the full confidence of CA’s front office and of officials throughout the
Department. Her competence and clear commitment to helping American citizens make her a
powerful advocate within the U.S. Government and a persuasive public speaker. She encourages
innovation and flexible approaches to work. Most in ACS thrive under this management style
and use the freedom they have to serve American citizens better. Some, for example, improved
outreach to older and disabled Americans; others harnessed technology to train posts
interactively. However, some employees do not function well in this entrepreneurial
environment, especially those who lack the confidence or desire to seize opportunities or who
require greater structure and uniformity in policies and procedures to perform optimally.

        To address this absence of structure, the OIG team discussed with the managing director
and acting ACS director the need, without stifling creativity, to hold division chiefs and team
leaders accountable for an established set of tasks and officewide standards. This would help to
ensure that ACS resources promote U.S. objectives as enunciated by CA in its Strategic and
Resource Plan, which was a collaborative effort and includes priorities that span the full range of
consular operations.

        Personal surveys and interviews reveal that most ACS staff members have high morale
regarding the work itself; they are committed to helping Americans and feel privileged to do so.
However, morale is lower regarding internal practices, which some perceive as unfair. The OIG
team discussed the fairness issue throughout the inspection and concluded that, despite the
perceptions of some, ACS leadership was genuinely committed to a fair and equitable officewide
distribution of perquisites and responsibilities. Accordingly, the inspectors counseled ACS
leadership that more transparency and across-the-board accountability could help employees see
that professional opportunities and duties are shared fairly and mitigate allegations of unfairness.
(See the Western Hemisphere Division and Crisis Management Staff sections for further
discussion of this issue.)



                                           3
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


         The OCS DAS must remain accessible to the CA Assistant Secretary and principal
deputy assistant secretary. Consequently, he spends the majority of his work week in the CA
front office at the Harry S. Truman/Main State building. This physical separation makes the
DAS’s role as bridge between the OCS offices (including ACS) and the CA front office more
difficult, yet also more critical, than for other bureaus at Main State, where mid-level officers are
more likely to interact with and be visible to their front offices. OCS is smaller than its sister
functions (visa and passport services), its work is case by case, and the office does not draw
congressional attention unless there are problems. For these reasons, OCS risks being overlooked
in the larger CA context. In times of crisis such as the Japan earthquake in early 2011, when
OCS required surge task force support from all of CA, as well as in bureauwide resource
planning in which the tendency has been to focus on visa services, the OCS DAS must be the
representative for OCS issues and the advocate for OCS equities within CA.

        Because OCS has a strong managing director, there is little need for the DAS to involve
himself in day-to-day internal management. Instead, his direct interaction is needed in
crosscutting management and leadership areas: ensuring that ACS gets the information
technology support it needs; linking ACS’s outreach efforts more closely to the bureau’s; and
playing a strategic role in ACS staffing issues, including rightsizing reviews to determine
whether new staffing proposals are justified within the broader context of CA objectives and are
financially justifiable. The DAS could also be helpful in conveying Department policy and
objectives, particularly CA’s strategic goals and priorities, to ACS staff. Inspectors suggested
that the DAS make liberal use of digital video and conference calling as well as email to
minimize his time away from the front office and still increase two-way communication with
ACS.

       Informal Recommendation 1: The Bureau of Consular Affairs should implement a plan
       to increase communication between the deputy assistant secretary for Overseas Citizens
       Services and the Office of American Citizens Services and Crisis Management
       employees.

        In addition to its crisis management staff, ACS has five geographic divisions that mirror
the Department’s regional bureaus. A chief runs each division, and a team leader serves as
deputy. The OIG team found that the division of labor between division chiefs and team leaders
is not clearly defined and that the different management styles of individual chiefs, not all of
whom are strong leaders, is resulting in uneven application of officewide rules and procedures.
This, in turn, has an adverse effect on morale.

        In some sections, the team leader carries country and functional portfolios as well as
serving as backup to the chief, who retains active control of the division. In other sections, chiefs
have delegated daily management of the section to the team leader and appear to have little day-
to-day contact with their divisions. Employees rightfully believe that the chiefs, who are their
supervisors and write their performance evaluations, need to be aware of their work and be
actively engaged in training and counseling them instead of delegating those functions to the
team leader. The OIG team also found examples of inconsistent application of rules in different
ACS divisions regarding time and attendance (especially tardiness) and application of the
Department’s telework policy. In meetings with the OIG team, ACS leadership acknowledged

                                           4
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


these concerns and used an off-site meeting with division chiefs to start the process of
standardizing and enforcing office policies and procedures.

       Informal Recommendation 2: The Bureau of Consular Affairs should identify
       leadership training opportunities for all division chiefs who, in management’s
       assessment, demonstrate a need to strengthen their skills.

       Informal Recommendation 3: The Bureau of Consular Affairs should include a standard
       list of management and supervisory responsibilities in the job descriptions of all division
       chiefs and require them to carry out those responsibilities.

        The inspectors’ interviews with ACS staff revealed some discomfort about the
appropriate role of the team leader, given that divisions use the team leader position differently
and some citizens services specialist jobs are now at the same GS-13 level as team leader
positions. Making the management tasks of the team leader standard in every section would be
helpful; as noted previously, those tasks must not include day-to-day supervision of staff because
the division chief, not the team leader, is the supervisor of record. Appropriate tasks for team
leaders might include serving as acting chief, tracking taskings, taking the lead on award
nominations, or overseeing the section’s participation on task forces and working groups, for
example. At the same time, ACS officers here and abroad express a need for more functional
expertise, whether in a given area of citizens services or in outreach, training, or crisis
management. ACS could explore what duties to give the team leaders so that their management
role is made clear and ACS accomplishes its work efficiently using the staff it already has.

       Informal Recommendation 4: The Bureau of Consular Affairs should write job
       descriptions for team leaders that include a standard set of nonsupervisory management
       requirements and a portfolio of country and functional responsibilities.




                                           5
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



Policy and Program Implementation
European and Eurasian Division

Internal Management and Service to Posts

        U.S. embassies and consulates in Europe rated ACS highly. Most gave their citizens
services specialists top scores on their surveys, while also praising the skill and accessibility of
the chief and team leader. Citizens services specialists in the European division are creative, have
high morale, take pride in their division, and participate widely on bureau working groups, task
forces, and outreach.

        The division chief and the team leader have developed a thorough training program. In
addition to a formal program for new employees, the division also has training plans for each
staff member and runs information sessions for posts. In one session, the division chief
connected more than 20 posts into a discussion with a CA attorney about the two-parent
signature law for passport applications of minors; other sessions involved coordinated training
with U.S. posts in Germany and Brussels. These sessions help consular officers abroad stay
abreast of policy and technology developments, foster consistency across the region, and raise
the level of service to Americans abroad. The chief’s use of technology is a practice other
bureaus could emulate to communicate simultaneously, interactively, and quickly with posts.

The ACS++ Blog

        The chief also created the ACS++ blog, which many consular officers abroad lauded as
the most user-friendly source of information about consular practices. The blog does not and
should not introduce policy; CA uses cables and the Foreign Affairs Manual (FAM) to do so.
The blog instead provides a forum for posts to exchange best practices and pose questions and
for CA to use a case study method to help posts understand how to implement policies. As useful
as the blog is, there are two issues. The first is determining who will serve as community
administrator when the European division chief leaves this summer. The second is ensuring that
the content is authoritative and discussions are monitored. During the inspection, ACS officials
advocated maintaining the blog after the European division chief leaves and were asking for
volunteers to take the position. Because of its importance to posts, this responsibility needs to be
considered part of an employee’s job description, not a voluntary task. Moreover, to ensure that
information on the blog is accurate, the individual asked to maintain it needs to be expert in
consular affairs and to be familiar with, or be quickly trained in, the technology of running a blog
and the Department policies regarding blogs. CA also needs a standard operating procedure to
establish how frequently the blog is monitored, what level of clearance is needed on entries, and
the criteria the community administrator will use to determine when to delete inappropriate or
inaccurate information others add.

Recommendation 1: The Bureau of Consular Affairs should identify an experienced consular
officer to serve as coordinator of the ACS++ blog community, provide any necessary training to
that employee, and include blog-related responsibilities in the employee’s work requirements
statement. (Action: CA)
                                           6
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Recommendation 2: The Bureau of Consular Affairs should establish and implement a standard
operating procedure for the ACS++ blog. (Action: CA)

European Division’s Role in the Consular Information Program

        A major function of ACS is providing U.S. citizens traveling abroad with information
about their destination, what to do in an emergency, and how to register with the embassy.
Citizens services specialists update Country-Specific Information sheets at least every 6 months.
The European division is responsible for developing templates for these sheets, including
determining content and the most user-friendly means of presenting the information. The
division’s combination of technological savvy and wide participation in ACS working groups
makes it ideally suited for this task. The division solicits content ideas from colleagues
throughout ACS and provides them with guidance on ways to make the information more clear,
such as the use of plain language, bullets, and headers.

East Asia and Pacific Division

Internal Management and Service to Posts

        U.S. embassies and consulates in the East Asia and Pacific region gave generally good
reviews to ACS. Most officers overseas were pleased with the responsiveness of their citizens
services specialists, although some more experienced officers expressed concern about two
areas: the quality of guidance to the field and a perceived shift in the focus of ACS. Several
officers mentioned that there appears to be a reliance on email and the ACS++ blog to get
messages to the field. They felt the informal use of duplicative sources is leading to unclear and
incomplete guidance. There also was a sense that the relationship between the officers overseas
and ACS has become more adversarial. One field officer felt that ACS does not always respect
the judgment and expertise of consular officers overseas. Another felt that a proliferation of
Washington-based initiatives, such as a call to designate a point of contact for older Americans,
indicated that OCS's sense of its mission is out of synch with what those in the field see as their
mission. In discussions with the inspectors, ACS leadership found these insights useful for future
management planning.

        There is a mix of Civil Service and Foreign Service officers in the East Asia and Pacific
division, with a Foreign Service division chief. The majority of the citizens services specialists
are in the Civil Service, but most have worked in an overseas environment. Morale among
citizens services specialists is mixed, which affects relationships with overseas posts. In part to
address morale issues, the division chief actively seeks opportunities for employees in the
division to travel and participate in outreach and recognizes the individual preferences of
division members.

Africa Division

Internal Management and Service to Posts

      U.S. embassies and consulates in Africa gave mixed reviews to the Africa division.
Although some posts were pleased, for those that were not, the most common complaint was a
                                               7
                           SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


lack of responsiveness and timeliness, including for routine requests. Another concern was the
perceived lag in clearing warden messages, with the observation that clearances were
accomplished more rapidly after hours, when the Department’s Operations Center managed the
task via conference call.

        Within the office, Civil Service employees outnumber Foreign Service officers, but,
through excursion tours and temporary duty assignments, many also have overseas experience.
The citizens services specialists in the Africa division tend to have good esprit de corps but little
direction from their division chief and uneven support from their team leader, who appears
overworked in part from assuming many of the duties formerly designated to the division chief.
Citizens services specialists tend to rely on one another for support and advice or to seek it from
other divisions. The chief, who is officially responsible for supervising all personnel within the
division, has been late in completing employee evaluations at the conclusion of each rating cycle.
ACS management is aware of the problem, which has persisted through more than one reviewing
cycle. The inspectors counseled the managing director and acting ACS director to take measures
to ensure that supervisors complete employee evaluations on time or be censured per 3 FAM
2827.7.

Recommendation 3: The Bureau of Consular Affairs, in coordination with the Bureau of
Human Resources, should counsel any supervisor who fails to complete employee evaluation
reports for all personnel on time, in accordance with Department of State standards. (Action: CA,
in coordination with DGHR)

         The Africa division has been successful in encouraging innovation. The use of Facebook
to solve a welfare and whereabouts case is one example. The Africa division also has the lead
within CA for supporting the Department of Defense’s global voting program, and the division
chief has traveled extensively overseas and domestically to promote this initiative. The division
chief is also very interested in promoting outreach to the public, most recently joining other CA
staff in a meeting with AARP. Although the chief has sought a full-time outreach coordinator to
manage this duty, the OIG team feels that the same goal can be achieved by a reallocation of
portfolios. The division chief has also told his staff to be “larger than just telephone clerks” and
to think about opportunities and special projects. Given the division’s mixed feedback from posts
in accomplishing its core duties, as well as the adverse impact that tardy employee evaluations
can have on employees’ career advancement and overall morale, the inspectors counseled the
division chief to be more engaged in leading his division and more supportive of his staff in
providing prompt and responsive service to posts.

Team Leader’s Financial Portfolio

        The Africa division team leader is responsible, together with employees in the Western
Hemisphere division, for the financial portfolio for the entire ACS office. The team leader
assumed this responsibility from the division chief and estimates that one-third of his time is
spent on financial duties. This drain on his time should end soon, however, because ACS
recently hired a financial management expert. The Resource Management section of this report
identifies numerous steps CA should take to streamline financial processes. Although the team
leader successfully recommended the addition of a full-time ACS financial coordinator position,
the inspectors recommended that this position be eliminated in favor of the more efficient and
                                                  8
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


cost-effective financial procedures listed in this report. A detailed discussion of the ACS
financial portfolio appears in the Resource Management section.

Near East and South Asia Division

Internal Management and Service to Posts

       U.S. embassies and consulates in the Near East and South Asia gave generally good
reviews to ACS. Many noted that, due to time zone differences, citizens services specialists were
not available during their posts’ business hours. Nevertheless, they appreciated ACS’s
promptness. Some posts were quick to note that they often had email responses waiting for them
when they arrived at work the next business day.

        Emerging from the “Arab spring” of early 2011 and the crises that it engendered, the
Near East and South Asia division has participated in multiple task forces. As with the rest of
ACS, all do not share the burden evenly. There is also the perception that leadership in this
division does not enforce time and attendance and telework privileges uniformly. The division
chief demonstrated to the inspectors that she has a full grasp of her division’s issues, and of the
portfolios assigned to her citizens services specialists, yet remained distant from her staff. At the
time of the inspection, the self-assured team leader who manages the division was in the process
of leaving ACS for a 1-year detail position.

        Both Civil Service and Foreign Service officers serve in the division, with some Civil
Service employees never having had the opportunity to visit or work temporarily in an ACS
section overseas. Within the office, the staff appears collegial, but there are morale issues and
personality conflicts with the division’s leadership. With a “hands-off” management style, the
division chief says she has an open door policy. However, some staff members find her
inaccessible and thus seek guidance from other colleagues or division chiefs. Given that the chief
has delegated division management to the team leader, whose forceful style has not always
proved effective in motivating division employees, the inspectors suggested that whoever serves
as acting team leader the following year would do well to adopt a more supportive, collaborative
style.

       Informal Recommendation 5: The Bureau of Consular Affairs should counsel all
       division chiefs in the Office of American Citizens Services and Crisis Management to be
       active and engaged in the day-to-day leadership of their divisions.

Western Hemisphere Division

Internal Management and Service to Posts

       U.S. embassies and consulates in the Western Hemisphere gave high marks to ACS.
Many described their good working relationships with their citizens services specialists. Despite
high job satisfaction, however, many division employees rated their morale as relatively low.
Personal questionnaires and interviews revealed a number of contributing factors: a perception of
OCS-wide unfairness and favoritism in the distribution of travel and other opportunities; the
compression of office space to accommodate the burgeoning workforce of ACS’s neighbor, the
                                               9
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Office of Children’s Issues; and the proliferation of task forces from the year of crises, starting
with the devastating January 2010 earthquake in Haiti. More than any other, the Haiti earthquake
took its toll on this division. Here, as in other divisions, staff members were dissatisfied that all
do not share the burden of task force duty evenly. The inspectors discussed with ACS leadership
such morale issues extensively, particularly those pertaining to a lack of transparency in
decisionmaking and the perception of unfairness. Acknowledging the concerns, ACS promptly
took steps to improve the situation.

        There is a mix of Civil Service and Foreign Service officers in the division, with most
Civil Service employees having served overseas in some capacity. The division chief was tapped
to serve as acting ACS director until the arrival later this summer of the permanently assigned
director. During this interim period while the team leader is serving as acting division chief,
information flow to the division appears to be suffering. The inspectors discussed with ACS
leadership some strategies for improving morale, including transparency in management
decisionmaking and more equitable sharing of task force and other duties (see the Executive
Direction and Crisis Management sections of this report for further discussion).

Crisis Management Staff

Internal Management and Relevance

        The crisis management staff is the only nongeographic grouping in ACS and is
responsible primarily for coordinating task forces and maintaining the duty programs for all of
OCS. The division provides some training to consular staff overseas in the use of crisis
management software. Members of the Bureau of Legislative Affairs and the Executive
Secretariat’s Operations Center praise the division for its responsiveness and around-the-clock
monitoring of task force duties and for the competence of CA representatives on task forces.
Notwithstanding the very high reviews outside ACS, personal questionnaires of employees
within the division revealed a perception of unfairness and inequity in task force duty as well as
a general desire for more and better training for the task force coordinator positions. Perhaps as a
consequence, morale is mixed among crisis management staff members. ACS has established a
working group to address task force reform. A separate working group is developing
recommendations for reforming the ACS duty program. Reform in both of these areas, which all
within ACS leadership recognize is necessary, will go far in resolving the previously noted
problems.

        To develop more training for overseas staff, CA/OCS/ACS has proposed the creation of
a new position in crisis management at the GS-13 level. Although the job description for the
proposed position is for a GS-13, OCS management indicated the intention to fill it with an FS-
03 Foreign Service officer. The new position would be responsible for developing standard
operating procedures for overseas missions to use in crises. The procedures would be based on
existing FAM guidance. Although the OIG team acknowledges a need for some overseas
perspective in the formulation of crisis management guidance, it found no evidence to support
the need for additional staff. With three mid-level permanent staff members and two part-time
students, the section has sufficient staff to meet its core functions, provide training to overseas
missions, conduct outreach to key partners in the private sector, and provide opportunities to

                                          10
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


participate in exchanges with other divisions. Adding another mid-level position would result in
the duplication of duties and unnecessary use of funds.

Recommendation 4: The Bureau of Consular Affairs, in coordination with the Bureau of
Human Resources, should cancel newly created position DO5075 on the crisis management staff.
(Action: CA, in coordination with DGHR)

        Surge capacity is necessary in OCS during a crisis to staff task forces and maintain
regular services. Under the current structure, the crisis management staff reports through the
ACS director, who does not have authority over other OCS offices. This arrangement makes it
difficult to compel non-ACS staff to serve on task forces and is one reason CA often has to staff
task force shifts at the last minute.

Recommendation 5: The Bureau of Consular Affairs should move the crisis coordinator staff
out of the Office of American Citizens Services and Crisis Management and designate it as a
separate reporting unit under the managing director of Overseas Citizens Services. (Action: CA)

Task Force 2

        When a crisis occurs overseas, the Department forms a task force under the direction of
the Operations Center. The task force includes representatives of the regional bureau and any
functional bureau with a role to play, including CA. If the crisis affects large numbers of U.S.
citizens, CA will establish a secondary task force specifically for consular matters. This task
force is called Task Force 2, and the original task force becomes Task Force 1.

        To participate on Task Force 2, an individual must complete the consular task force
basics online training. Volunteers register to serve on a task force via an online application that
allows them to select their preferred shift and to stipulate whether they are volunteering as a
worker or a coordinator. In principle, only experienced officers who have been approved by ACS
management may serve as task force coordinators or represent CA on Task Force 1. In practice,
however, when scrambling to fill slots, ACS has switched staff at the last minute to the
coordinator or Task Force 1 position. ACS staff members complained to the OIG team that they
had not signed up for those positions and did not feel prepared for them. Given the critical
importance of helping U.S. citizens caught in a crisis abroad, proper training is essential for all
leaders of and participants in a task force.

       Informal Recommendation 6: The Bureau of Consular Affairs should establish and
       implement a plan to train all citizens services specialists in Overseas Citizens Services to
       serve in all three task force capacities: Task Force 2 member, Task Force 2 coordinator,
       and Task Force 1 representative.

        Serving on a task force is an element in the work requirements statements of all OCS
personnel; however, when a task force is established, ACS asks for volunteers to staff it.
Predictably, this voluntary system leads to inequity, with some employees never or rarely
volunteering. Moreover, it leads to a constant struggle and race against the clock to fill task force
slots before a shift begins. This practice wastes time and jeopardizes the success of a critical

                                          11
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


function. ACS learned from recent crises that its program needs to be changed. That process was
under way during the inspection.

Recommendation 6: The Bureau of Consular Affairs should establish a policy and implement
procedures for all citizens services specialists in Overseas Citizens Services to serve on task
forces as already stipulated in their work requirements. (Action: CA)

         Because record numbers of U.S. citizens travel abroad and crises can arise suddenly,
OCS wisely created on-call response teams. Division chiefs head each of the 7, 15-member
response teams; 1 team per week is on call. The on-call team would staff the first shifts of a task
force, if one were established. Oddly, members are not required to be available on the week that
their team is on call; rather, the leader of the response team polls members at the beginning of a
duty week to establish their whereabouts and bases task force staffing on those who are
available.

       Informal Recommendation 7: The Bureau of Consular Affairs should establish and
       implement a policy that requires all members of a crisis response team to be available for
       service when their team is on call.

Outreach

        The OCS managing director spends significant time on outreach to American citizens,
Congress, and business leaders, in addition to speaking to classes at the Foreign Service Institute.
During the inspection, she averaged two events a week, including a trip to Los Angeles, where
she participated in a Department of Homeland Security Community Roundtable for Muslim and
Arab Americans, Sikhs, Central Americans, South Asians, and Baha’is. She also addressed the
Overseas Security Advisory Council. Her commitment to outreach is shared widely in ACS,
where employees look for ways to provide information to Americans living or traveling abroad.
In just 1 week in May, ACS employees briefed congressional staff on the Travel Warning and
Travel Alert programs, met with representatives of Semester at Sea to discuss ways to enhance
the safety and security of students enrolled in that program, and attended a dinner with
nongovernmental organizations and other government agencies interested in promoting
international road safety. They also met with AARP to ascertain the key concerns of its
members. One immediate concern is how to avoid international financial scams. ACS is now
drafting articles for the association’s magazine on that and other subjects of interest to members.

        There are infinite possibilities, but limited resources, for reaching out to Americans. Until
recently, ACS has tended to be more reactive and spontaneous than strategic about its outreach.
To its credit, ACS understands that it needs a strategic plan and is drafting one. In working group
meetings that an inspector attended, ACS staff first identified the most important information
Americans need in order to keep safe overseas. With the message defined, ACS is analyzing the
most effective means of conveying that information and is drafting an outreach plan that is
consistent with CA’s Strategic and Resource Plan. The OIG team strongly supports this effort.

       Informal Recommendation 8: The Bureau of Consular Affairs should develop and
       implement an outreach plan for the Office of American Citizens Services and Crisis
       Management that is comprehensive, matches policy to resources, and is cleared with the
                                              12
                            SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


       bureau’s Office of Policy Coordination and Public Affairs so that the outreach program is
       coordinated and consistent bureauwide.

        ACS recently created the new position of coordinator for outreach and training. Although
such a position is common within the various offices of CA, it is unnecessary in ACS for several
reasons. First, section chiefs, not the outreach coordinator, are providing policy and operational
leadership to the outreach program and are drafting the outreach plan. A division chief could be
designated to write the annual outreach plan for ACS, tailoring the plan to the current needs of
American citizens and leading the outreach working group. Second, citizens services specialists
already draft articles, speak in public, and engage in other outreach tasks. Outreach coordination
could alternate among citizens services specialists under a program of 6-month rotations, during
which the designated specialist would be relieved of his or her country portfolio to concentrate
full time on outreach. Third, CA/OCS already has at least five positions designated for outreach
or training. These positions are within other individual OCS offices; were they brought together
in one CA/OCS outreach and training center serving all of OCS, the office would need fewer
staff members and could coordinate events better. A division chief or the proposed rotational
coordinator could coordinate on-the-job training, and a consolidated all-OCS outreach and
training office, or even a special assistant, could lead the orientation.

Recommendation 7: The Bureau of Consular Affairs, in coordination with the Bureau of
Human Resources, should eliminate the newly created outreach and training coordinator position
in the Office of American Citizens Services and Crisis Management and formally reassign those
functions to existing personnel. (Action: CA, in coordination with DGHR)




                                         13
                             SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED



Restructuring
        As described in the Context section of this report, CA is in the final stages of
implementing a major restructuring of OCS. The exercise was valuable in many ways, not least
of which was updating job descriptions to match current duties and creating more ladders for
Civil Service employees. As would be expected, not all employees understand the reasons for the
restructuring, despite many briefings, nor are they fully satisfied with it. Some believe the
objective of the entire exercise was to raise the grade of one individual employee; others feel
aggrieved that colleagues received higher grades than they did.

       Informal Recommendation 9: The Bureau of Consular Affairs front office should hold a
       town hall meeting to mark the final stages of restructuring, discuss its benefits to
       employees, describe how it is intended to enhance the bureau’s ability to meet its
       strategic and operational goals, and give personnel an opportunity to pose questions.

        The restructuring plan included the idea of creating two supervisory division chiefs, one
Civil Service and one Foreign Service, and both at the same grade as the ACS director to whom
they would report. These two positions were approved within CA but not by the Under Secretary
for Management, pending review by the Bureaus of Human Resources and Resource
Management. If approved, they would add a layer of management between the director of ACS
and the chiefs of the divisions, potentially reinforcing the “stovepipes” among geographic
divisions and further weakening already tenuous lines of communication. ACS already has five
chiefs, five team leaders, and a crisis coordinator. Adding two more managers would be
redundant and costly.

Recommendation 8: The Bureau of Consular Affairs, in coordination with the Bureau of
Human Resources, should withdraw its request for the GS-15 and FS-01 supervisory division
chief positions, divide the duties among the existing division chiefs, and rewrite their position
descriptions to reflect these new responsibilities. (Action: CA, in coordination with DGHR)

       Although the proposed supervisory division chief positions are not needed, the inspectors
recognized that the ACS director carries a substantial workload and could benefit from a second
in command. The inspectors suggested that ACS leadership consider a rotational program
whereby each geographic division chief would, in addition to his or her regular duties, serve 6
months as deputy to the director. Such a rotational program could remove some of the burden
from the director, improve career advancement potential for the division chiefs, and encourage
communication among ACS regional divisions.

         The restructuring plan also created a position for a financial management coordinator.
However, the position description describes many functions that are currently being performed
by others. For example, case officers review posts’ requests for authorization of funding for
repatriations and other matters and provide guidance to consular officers on the financial aspects
of particular cases. These duties do not unduly burden case officers. Other duties assigned to this
position would more appropriately fall under the jurisdiction of CA’s Office of the Comptroller,
such as providing liaison with the Bureau of Resource Management and private financial
institutions. Still other duties, such as tracking transactions and providing financial data to others,
                                           14
                               SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


could best be approached through automated systems and other improvements suggested in the
Resource Management section of this report. The inspectors see no need for the establishment of
this position and believe ACS has sufficient staff to perform all the duties in the position
description.

Recommendation 9: The Bureau of Consular Affairs, in coordination with the Bureau of
Human Resources, should eliminate the newly created position of financial management
coordinator in the Office of American Citizens Services and Crisis Management. (Action: CA, in
coordination with DGHR)




                                         15
                             SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED



Resource Management
Full-Time Positions
                               State                       Total
     Position         Foreign           Civil
                      Service          Service
    Authorized                18                 33                 51
      Filled                  14                 28                 42

Staff Grades – Number of Positions
                 Junior       Mid-level
  Position     (up to FS-4/  (up to FS-2/             Senior Mid-level
                  GS-8)         GS-14)                (FS-1 and GS-15)   SES/SFS1
State
Filled                    1             41                           0            0
Vacant                    0               6                          3            0
Combined                  1             47                           3            0
1
    SES, Senior Executive Service; SFS, Senior Foreign Service.

OCS Operating Budget (in thousands)
                 FY                     State
FY 2010                                   $4,339
FY 2011                                   $4,450
FY 2012 request                           $7,639


Financial Services

         Among the oldest and most important functions of the Department is to assist U.S.
citizens in trouble overseas. In some cases, that assistance is financial. Primary responsibility for
the financial portfolios in ACS is divided between the Africa and Western Hemisphere divisions.
The team leader in the Africa division is the chief financial officer and is responsible for tracking
money spent on all loans worldwide, coordinating with consular sections overseas to close out
financial transactions in the ACS database, and coordinating with the bureau’s Office of the
Comptroller. The chief in the Western Hemisphere division is responsible for reviewing all OCS
trust transactions. A financial affairs specialist on contract is serving as the backup to the chief
financial officer and is listed as the action officer for financial matters. Her duties consist largely
of tracking checks for the OCS trust from receipt to mailing. The ACS director supervises her.




                                               16
                                   SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


OCS Trust

        Dating back to World War I, CA has been tasked with assisting in the transfer of funds
from private U.S. citizens in the United States to other private citizens overseas. This task is
accomplished via the OCS trust. CA is assigned responsibility for administering trust fund
transactions in Foreign Affairs Handbook standard 4 FAH-3 H-324.6. In 7 FAH-1 H-700 of the
Consular Management Handbook are clear guidelines for safeguarding and accounting for cash
received for fee services, including a requirement to deposit collections at the end of each work
day; however, it does not address money received domestically. A standard operating procedure
for OCS trusts offers some guidance to citizens services specialists on how to create the
necessary case information in the ACS software and prepare a notification cable, but it does not
address procedures for safeguarding checks or depositing them.

        The OCS trust is an expensive and vulnerable operation. CA is authorized to assess an
annual surcharge fee on the life of an OCS trust account. A trust account is generally defined as
all funds going to the same individual within a fiscal year. In actual practice, all checks are
deposited into a single designated suspense account. (b) (5)




       (b) (5)




Recommendation 10: The Bureau of Consular Affairs, in coordination with the Bureau of
Resource Management, should conduct a thorough examination of the Overseas Citizens
Services trust function and implement clear guidelines for running the program. (Action: CA, in
coordination with RM)

Recommendation 11: (b) (5)




                                          17
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


        Department standard 7 FAM 324.1 lists the general criteria for using the OCS trust
function. One criterion is that commercial facilities in the foreign country are inadequate for
transferring funds. A review of Web sites for transferring funds internationally indicates that it is
possible to use commercial enterprises for transferring funds to almost every country. An
inspector’s review of 3 months’ worth of OCS trust cases revealed that some consular sections
may be performing unnecessary tasks. In one country, the consular section routinely takes the
funds provided by a family member and purchases local money orders, which are then mailed to
a prisoner. The involvement of a consular officer does not appear to be necessary for the transfer
of funds.

Recommendation 12: The Bureau of Consular Affairs should instruct overseas posts to evaluate
whether current conditions warrant the routine or recurrent use of the Overseas Citizens Services
trust. (Action: CA)

        The service fee of $30 per year is intended to cover the cost of performing the OCS trust
transactions and forwarding the funds to the receiving post. Many OCS trust accounts are set up
to provide funds for incarcerated individuals. Those cases tend to be recurring, with monthly and
sometimes weekly checks. The process and expense of transferring funds is the same whether it
is a new account or an established one. More than seven individuals have some involvement in
each OCS trust transaction, including the citizens services specialist in ACS, the financial affairs
specialist, the supervisor who reviews requests, the cashier overseas, the budget officer overseas,
a consular officer overseas, and employees of the lockbox facility. In FY 2010, the Department
processed 872 OCS trust checks. The ACS computer system tracks cases but does not have a
report function for the total amount received worldwide. An OIG review of deposit records for
the period November 9, 2010, to June 2, 2011, showed more than $500,000 worth of checks
received, with a total of $7,200 collected in fees due to the recurring nature of most of the
accounts involved. The current fee of $30 per year does not appear to cover the cost of recurring
transactions.

Recommendation 13: The Bureau of Consular Affairs should review the number of steps
involved, both domestically and overseas, in the process of administering an Overseas Citizens
Services trust and the amount it is charging for the trust and determine whether the cost needs to
increase and whether it should adopt a per-transaction fee schedule rather than a per-account fee.
(Action: CA)

Emergency Medical and Dietary Assistance Loans and Repatriation Loans

        In 1978, Congress gave the Department authority to provide loans to U.S. citizens
incarcerated abroad when private sources are not available. A similar program was later
developed for indigent U.S. citizens abroad who are not incarcerated but need money on a
temporary, emergency basis. Such services are provided on a reimbursable basis when all
attempts to secure funds from private sources are exhausted. The Department is also authorized
to provide loans for the purpose of repatriating destitute U.S. citizens from an overseas location
back to the United States, using the most direct and cost-effective route available. Financial
assistance under the repatriation loan program is on a reimbursable basis only, and all recipients
must complete an application form and a promissory note. The same paperwork is required of
U.S. citizens who are evacuated out of a dangerous area using government-provided resources.
                                                 18
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


        Any repatriation loan greater than $2,000 must be approved by ACS; lesser amounts may
be approved by the consular officer overseas. A financial assistance case is created in the
consular software used for ACS, and the documents are scanned in so that they can be viewed by
citizens services specialists and other CA officials. Full validity passports of loan recipients are
cancelled, and temporary ones that are valid only for return to the United States are issued. To
receive a new passport, the loan recipient must repay the outstanding loan. Original copies of
promissory notes are mailed to the financial services center in Charleston, SC, which is part of
the Bureau of Resource Management. That bureau is responsible for collecting repayment of
repatriation loans and emergency medical and dietary assistance loans.

        The ACS software generates fiscal data that allows an embassy’s financial management
office to process payments. However, that information is not passed electronically to the
computer system used in Charleston, SC. The ACS software tracks cases and maintains a total in
a budget report that is available to officers in ACS, but it does not have a report function that
allows the chief financial officer in the Africa division to review cases on a daily or weekly
basis. The developers of the software program must run a report every week to show the names
of loan recipients, the amounts approved, the amounts disbursed, the obligation numbers, and the
overseas consular section that provided the service. The chief financial officer reviews the report
and forwards a copy to CA’s Office of the Comptroller, which is responsible for tracking budget
issues for the bureau. That office then uses the weekly report to manually enter the information
into the financial system used by Charleston, the office responsible for collecting the debts.
Under the current system, CA’s budget officers cannot track budget spending or the percentage
of loans that recipients have repaid.

Recommendation 14: The Bureau of Consular Affairs, in coordination with the Bureau of
Resource Management, should review the computer-based systems that track and monitor loans
and develop an interface to allow the relevant offices in the Bureau of Consular Affairs and the
Bureau of Resource Management to have daily access to loan financial data. (Action: CA, in
coordination with RM)

        The loan program has long been considered an essential service, but its application is
complex and repayment is difficult to enforce. A U.S. citizen is considered destitute and thus
eligible for a loan only after a consular officer has determined that the individual has little or no
means of support or liquid assets; there are no family members, friends, or others willing and
able to assist financially; and no other funds are available to pay for the cost of repatriation. For
those same reasons, recipients often do not have funds to repay their loans. In FY 2010, the
Department issued more than 250 emergency medical and dietary assistance loans and more than
450 repatriation loans at a total cost of more than $1.9 million. Because loan collection is the
responsibility of the Bureau of Resource Management, ACS cannot track how many of the loans
are actually repaid.

       Many of the repatriation loans issued in FY 2010 were provided for emergency
evacuations. Although 7 FAM 1864 and 4 FAM 831 require the use of promissory notes for the
purpose of evacuating private U.S. citizens, 4 FAH-3 H-833.3 allows for verbal agreements to
repay a pro rata share in emergent situations involving groups. Complicating the collection of
evacuation loans is that the paperwork is frequently incomplete owing to the urgent, often
dangerous nature of evacuations. Often, the specific pro rata amount is not completed because it
                                                 19
                               SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


is not known at the time of evacuation. Saving lives takes priority over paperwork. Recognizing
that all crises are different and many factors are impossible to predict, having the ability to
provide an estimated cost to U.S. citizens being evacuated would greatly enhance the
Department’s ability to collect loans and allow recipients to better assess their options.

       Informal Recommendation 10: The Bureau of Consular Affairs should determine
       approximate costs for standard evacuation services in advance so that posts can inform
       U.S. citizens before they evacuate and prepare mandatory paperwork.

Orientation, Training, and Continuing Education

Orientation

        During the inspection, the OCS managing director brought together representatives from
all OCS offices, including ACS, to discuss how to orient new employees. The aim is to complete
an orientation handbook and a checklist of appointments that a sponsor should arrange for a new
employee to speed familiarization with CA and to assist in administrative tasks. The OIG team
supports this effort and urges the managing director to launch the new orientation program in
time for the summer transfer season.

On-the-Job Training

        In addition to OCS’s orientation program, ACS also is considering standardizing on-the-
job training. Currently, each division chief determines how to train employees. Some divisions,
as noted earlier, have developed formal programs to teach new employees each aspect of citizens
services. Employees in those divisions tend to be grateful for the formal training program and
receive good reviews from posts. Other chiefs prefer a hands-off approach, directing new
personnel to ask questions when they encounter something on the job that they do not
understand. The difficulty with the latter approach is that recently arrived personnel might be too
new to know what questions to ask. Also, there might be a natural reticence to assert oneself
when new to the office.

        The OIG team supports ACS’s effort to standardize on-the-job training across divisions.
Doing so will develop the next cadre of highly skilled citizens services specialists, bring new
employees up to speed faster and with more support, and allow employees to learn from experts
across ACS. During the inspection, division chiefs were developing the program. As noted in the
Outreach section in this report, the chiefs are the appropriate people for the task, and thus there is
no need for the newly created ACS outreach and training coordinator. As supervisors, division
chiefs should have training and mentoring of their staff as part of their responsibilities. They also
are best positioned to identify the knowledge and skills new citizens services specialists require.
ACS also needs to consider how to provide on-the-job training for new employees who will not
serve as citizens services specialists. The OIG team counseled OCS on these issues.

Continuing Education

        ACS's continuing education program for OCS staff, including citizens services
specialists, is superb. One innovation is “OCS-University,” colloquially known as “OCS-U.”
                                               20
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


OCS sets a curriculum annually of required core courses and electives. Subject matter experts
within OCS teach their OCS colleagues. Courses include both operational training, such as how
to work with victims or how to provide judicial assistance, and training in tradecraft, such as
public speaking and using the SharePoint site. Posts can be connected as well. (See the Europe
and Eurasian Division section of this report for other ways ACS offers training to overseas
officers.)

Civil Service Rotation

         Civil Service employees account for more than 60 percent of ACS and provide in-depth
experience in the office's issues. Currently, the only official way to move from one geographic
division to another is to wait for a vacancy. Although long service in one region appeals to some
employees, others would appreciate variety. The inspectors briefed the OCS managing director
and ACS acting director on the rotational program of the Office of the Legal Adviser, which also
is staffed with a high proportion of Civil Service employees. A similar program in ACS could
broaden employee expertise in ACS services in more than one region of the world, boost morale,
and give citizens services specialists the chance to work with and learn from different
supervisors.

Regional Expertise

        Although posts largely praised the support they receive from ACS, they also observed
that not all citizens services specialists had a working knowledge of the geographic regions in
which their client posts operate. Political, security, and economic developments in a country
affect the security of Americans and the delivery of services to them. Steps to increase the
regional expertise of citizens services specialists could include inculcating the daily practice of
keeping up with regional developments; encouraging regular review of cables and press
summaries; urging attendance at regional bureau meetings; being aware of speeches and
congressional testimony on the region; including visits to regional bureau desk officers on the
orientation check-in sheet for new Office of American Citizens Services and Crisis Management
personnel; enrolling more American Citizens Services and Crisis Management students in the
Foreign Service Institute’s area studies course, space-permitting; and budgeting for short
orientation trips to the region.

       Informal Recommendation 11: The Bureau of Consular Affairs should develop the area
       expertise of its citizens services specialists.




                                          21
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED



Equal Employment Opportunity
        CA has many Equal Employment Opportunity (EEO) counselors to cover its offices at
the Harry S. Truman/Main State office building and at the various annexes; however, there are
none currently in the OCS directorate. Inspectors found that employees did not know whom to
contact, nor did the inspectors see any EEO information posted. The team raised the matter with
the acting ACS director, who immediately took several steps to address the situation. He found
two ACS employees interested in becoming counselors and submitted their applications to the
Department’s Office of Civil Rights. The director also contacted an EEO counselor in another
CA office in the same building, who agreed to fill the role in the interim. His name is now posted
at various places within the ACS suite. The Office of Civil Rights reports that there are no EEO
cases pending for ACS.




                                         22
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



List of Recommendations
Recommendation 1: The Bureau of Consular Affairs should identify an experienced consular
officer to serve as coordinator of the ACS++ blog community, provide any necessary training to
that employee, and include blog-related responsibilities in the employee’s work requirements
statement. (Action: CA)

Recommendation 2: The Bureau of Consular Affairs should establish and implement a
standard operating procedure for the ACS++ blog. (Action: CA)

Recommendation 3: The Bureau of Consular Affairs, in coordination with the Bureau of
Human Resources, should counsel any supervisor who fails to complete employee evaluation
reports for all personnel on time, in accordance with Department of State standards. (Action: CA,
in coordination with DGHR)

Recommendation 4: The Bureau of Consular Affairs, in coordination with the Bureau of
Human Resources, should cancel newly created position DO5075 on the crisis management staff.
(Action: CA, in coordination with DGHR)

Recommendation 5: The Bureau of Consular Affairs should move the crisis coordinator staff
out of the Office of American Citizens Services and Crisis Management and designate it as a
separate reporting unit under the managing director of Overseas Citizens Services. (Action: CA)

Recommendation 6: The Bureau of Consular Affairs should establish a policy and implement
procedures for all citizens services specialists in Overseas Citizens Services to serve on task
forces as already stipulated in their work requirements. (Action: CA)

Recommendation 7: The Bureau of Consular Affairs, in coordination with the Bureau of
Human Resources, should eliminate the newly created outreach and training coordinator position
in the Office of American Citizens Services and Crisis Management and formally reassign those
functions to existing personnel. (Action: CA, in coordination with DGHR)

Recommendation 8: The Bureau of Consular Affairs, in coordination with the Bureau of
Human Resources, should withdraw its request for the GS-15 and FS-01 supervisory division
chief positions, divide the duties among the existing division chiefs, and rewrite their position
descriptions to reflect these new responsibilities. (Action: CA, in coordination with DGHR)

Recommendation 9: The Bureau of Consular Affairs, in coordination with the Bureau of
Human Resources, should eliminate the newly created position of financial management
coordinator in the Office of American Citizens Services and Crisis Management. (Action: CA, in
coordination with DGHR)

Recommendation 10: The Bureau of Consular Affairs, in coordination with the Bureau of
Resource Management, should conduct a thorough examination of the Overseas Citizens
Services trust function and implement clear guidelines for running the program. (Action: CA, in
coordination with RM)


                                          23
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Recommendation 11: (b) (5)




Recommendation 12: The Bureau of Consular Affairs should instruct overseas posts to
evaluate whether current conditions warrant the routine or recurrent use of the Overseas Citizens
Services trust. (Action: CA)

Recommendation 13: The Bureau of Consular Affairs should review the number of steps
involved, both domestically and overseas, in the process of administering an Overseas Citizens
Services trust and the amount it is charging for the trust and determine whether the cost needs to
increase and whether it should adopt a per-transaction fee schedule rather than a per-account fee.
(Action: CA)

Recommendation 14: The Bureau of Consular Affairs, in coordination with the Bureau of
Resource Management, should review the computer-based systems that track and monitor loans
and develop an interface to allow the relevant offices in the Bureau of Consular Affairs and the
Bureau of Resource Management to have daily access to loan financial data. (Action: CA, in
coordination with RM)




                                         24
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: The Bureau of Consular Affairs should implement a plan to
increase communication between the deputy assistant secretary for Overseas Citizens Services
and the Office of American Citizens Services and Crisis Management employees.

Informal Recommendation 2: The Bureau of Consular Affairs should identify leadership
training opportunities for all division chiefs who, in management’s assessment, demonstrate a
need to strengthen their skills.

Informal Recommendation 3: The Bureau of Consular Affairs should include a standard list of
management and supervisory responsibilities in the job descriptions of all division chiefs and
require them to carry out those responsibilities.

Informal Recommendation 4: The Bureau of Consular Affairs should write job descriptions
for team leaders that include a standard set of nonsupervisory management requirements and a
portfolio of country and functional responsibilities.

Informal Recommendation 5: The Bureau of Consular Affairs should counsel all division
chiefs in the Office of American Citizens Services and Crisis Management to be active and
engaged in the day-to-day leadership of their divisions.

Informal Recommendation 6: The Bureau of Consular Affairs should establish and implement
a plan to train all citizens services specialists in Overseas Citizens Services to serve in all three
task force capacities: Task Force 2 member, Task Force 2 coordinator, and Task Force 1
representative.

Informal Recommendation 7: The Bureau of Consular Affairs should establish and implement
a policy that requires all members of a crisis response team to be available for service when their
team is on call.

Informal Recommendation 8: The Bureau of Consular Affairs should develop and implement
an outreach plan for the Office of American Citizens Services and Crisis Management that is
comprehensive, matches policy to resources, and is cleared with the bureau’s Office of Policy
Coordination and Public Affairs so that the outreach program is coordinated and consistent
bureauwide.

Informal Recommendation 9: The Bureau of Consular Affairs front office should hold a town
hall meeting to mark the final stages of restructuring, discuss its benefits to employees, describe
how it is intended to enhance the bureau’s ability to meet its strategic and operational goals, and
give personnel an opportunity to pose questions.
                                          25
                              SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Informal Recommendation 10: The Bureau of Consular Affairs should determine approximate
costs for standard evacuation services in advance so that posts can inform U.S. citizens before
they evacuate and prepare mandatory paperwork.

Informal Recommendation 11: The Bureau of Consular Affairs should develop the area
expertise of its citizens services specialists.




                                        26
                            SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



Principal Officials

                                                            Name      Arrival Date
Assistant Secretary                               Janice L. Jacobs         06/2008
Deputy Assistant Secretary                          James D. Pettit        11/2010
Managing Director, CA/OCS                    Michelle Bernier-Toth         02/2011
Director, ACS                               Hugo Rodriguez, Acting         03/2011
Division Chiefs:
   Europe and Eurasia                             Andrew T. Miller        08/2008
   East Asia                                      Timothy F. Ponce        08/2009
   Africa                                           Jack D. Markey        06/2000
   Western Hemisphere                     Robert A. Haldane, Acting       05/2011
   Near East and South Asia                  Viktoria Lopatkiewicz        07/2003
   Crisis Management Coordinator                Elizabeth H. Cherry       07/2009




                                      27
                          SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED



Abbreviations
CA/OCS/ACS      Bureau of Consular Affairs, Overseas Citizens Services, Office of
                American Citizens Services and Crisis Management
DAS             Deputy assistant secretary
Department      U.S. Department of State
EEO             Equal Employment Opportunity
FAH             Foreign Affairs Handbook
FAM             Foreign Affairs Manual
OIG             Office of Inspector General




                            28
                SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:


             202-647-3320
             800-409-9926

         oighotline@state.gov


             oig.state.gov

      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
        Arlington, VA 22219



  Cables to the Inspector General
 should be slugged “OIG Channel”
     to ensure confidentiality.




   SENSITIVE BUT UNCLASSIFIED
